<
\

%
'I

.*

App'x: A
SIXTH CIRCUIT COURT OF APPEALS OPINION

NOT RECOMMENDED FOR PUBLICATION
No. 1 8-2232
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JERMOND PERRY,

)
)
)
)

Petitioner-Appellant,

)
)
)

v.
JEFFREY WOODS, Warden,

)
)
)
)

Respondent-Appellee.

FILED
May 06, 2020
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

ORDER

Before: COLE, Chief Judge; GUY and BUSH, Circuit Judges.

Jermond Perry, a Michigan prisoner proceeding pro se, appeals the district court’s
judgment denying his petition for a writ of habeas corpus, filed pursuant to 28 U.S.C. § 2254. This
case has been referred to a panel of the court that, upon examination, unanimously agrees that oral
argument is not needed. See Fed. R. App. P. 34(a).
In 2004, a jury convicted Perry of two counts of first-degree murder, in violation of
Michigan Compiled Laws § 750.316(1 )(a); two counts of first-degree felony murder, in violation
of Michigan Compiled Laws § 750.316( 1 )(b): one count of being a felon in possession of a firearm,
in violation of Michigan Compiled Laws § 750.244f; and one count of possessing a firearm during
the commission of a felony, in violation of Michigan Compiled Laws § 750.227b. See People v.
Perry, No. 294223, 2011 WL 1 18809, at *1 (Mich. Ct. App. Jan. 13, 2011) (per curiam). The
convictions arose from the May 2003 shooting deaths of Dennis and Andrea Perry in their home
and in the presence of their six-year-old son. The trial court sentenced Perry to life imprisonment
for the first-degree murder convictions, three to five years of imprisonment for being a felon in

No. 18-2232
-2possession of a firearm, and two years of imprisonment for possessing a firearm during the
commission of a felony. See id. The Michigan Court of Appeals affirmed Perry’s convictions, id.
at *6, and the Michigan Supreme Court denied leave to appeal, People v. Perry, 803 N.W.2d 331
(Mich. 2011) (mem.).
In 2012, Perry filed a § 2254 petition raising five grounds for relief: (1) the trial court erred
by denying his motion for a new trial because the officer in charge engaged in ex parte
communications with the jury; (2) the trial court violated his equal-protection rights when it denied
his jury challenge based on Batson v. Kentucky, 476 U.S. 79 (1986); (3) the trial court improperly
admitted hearsay evidence from one of the victim’s children; (4) the trial court erred by admitting
his co-defendants’ hearsay testimony; and (5) the trial court erred by denying his motion for a new
trial based on newly discovered evidence. In an amended petition, Perry raised four additional
claims: (6) there was insufficient evidence to sustain his convictions; (7) the prosecutor engaged
in misconduct; (8) trial counsel performed ineffectively; and (9) appellate counsel performed
ineffectively, and he was actually innocent. The district court denied Perry’s habeas petition on
the merits. It granted Perry a certificate of appealability on his Batson claim only. This court
denied Perry’s motion to expand the certificate of appealability.
On appeal, Perry argues that the trial court violated his rights to equal protection and to a
jury drawn from a cross-section of the community when it allowed the prosecutor to strike three
female African-American jurors without providing non-pretextual, race-neutral reasons. Perry
contends that, because the Michigan Court of Appeals found that he had waived this claim and did
not address it on the merits, de novo review should apply. Finally, Perry argues that he properly
preserved his challenge as to all three African American jurors.
In an appeal from the denial of a habeas corpus petition, we review the district court’s legal
conclusions de novo and its factual findings for clear error. Jackson v. Bradshaw, 681 F.3d 753,
759 (6th Cir. 2012). If the state court adjudicated a petitioner’s claim on the merits, a federal court
may not grant habeas relief unless the state court’s adjudication resulted in “a decision that was
contrary to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States,” or “a decision that was based on an

No. 18-2232
-3
unreasonable determination of the facts in light of the evidence presented in the State court
proceeding.”

28 U.S.C. § 2254(d)(l)-(2).

However, if a petitioner’s “claim was never

‘adjudicated on the merits in State court proceedings,’ the limitations imposed by § 2254(d) do not
apply, and we review the claim de novo.” Bies v. Sheldon, 775 F.3d 386, 396 (6th Cir. 2014).
After the completion of jury selection, the trial court asked defense counsel if he “want[ed]
to make a record with regard to the Batson issue.” Counsel responded:
the only issue is 1 was challenging the release of [LH] by the prosecutor. She was
the third African American. In fact, the third African American female that the
prosecutor released. At that point in time he only had one other individual that he
had released, and that was Mr. Mero. So that’s why I’m making a challenge
because he had released two other African Americans at the time he released | LH].
The prosecutor then listed several reasons for excusing LH, and the trial court found that the
prosecutor “provided a neutral explanation as to why [LH] was excused.”
In the appellate brief that Perry filed in the Michigan Court of Appeals, he argued that the
trial court erred by failing to require the prosecutor to state race-neutral reasons for excusing the
first two of the three black jurors that were excused through the prosecutor’s use of peremptory
challenges. Perry did not expressly challenge the decision to excuse LH, for whom the prosecutor
was required to provide a race-neutral reason. The Michigan Court of Appeals—“the last reasoned
state court opinion to determine the basis for the state court’s rejection of’ Perry’s Batson claim,
see Guilmette v. Howes, 624 F.3d 286, 291 (6th Cir. 2010) (en banc)—concluded that Perry had
failed to preserve his Batson claim with respect to his objections to the first two African-American
jurors, because the objection that he raised during jury selection challenged only the decision to
excuse LH. Perry, 2011 WL 118809, at *3. Thus, the Michigan Court of Appeals did not address
the merits of Perry’s Batson claim. Because the district court chose to address Perry’s claim on
the merits rather than on procedural-default grounds, this court will do so as well. However, a de
novo standard of review applies. Bies, 775 F.3d at 396.
When a Batson objection is raised: (1) the defendant must make a prima facie showing that
the prosecution exercised a peremptory challenge on the basis of race; (2) if the defendant makes
that showing, the prosecution must offer a race-neutral basis for striking the juror; and (3) the trial

No. 18-2232
-4court must then determine whether the defendant has shown purposeful discrimination. Miller-El
v. Cockrell, 537 U.S. 322, 328-29 (2003). The burden of persuasion always remains with the party
opposing the peremptory challenge. Rice v. Collins, 546 U.S. 333, 338 (2006).
Perry did not make a prima facie showing that the prosecution excused the first two African
American jurors on the basis of race. Rather, he expressly limited his objection to the peremptory
challenge used to excuse LH. It is clear from the context of counsel’s objection that he mentioned
the prosecutor’s prior peremptory challenges only in an attempt to make the requisite prima facie
showing with respect to LH—that is, to show the existence of a pattern of excusing African
American jurors. Thus, to the extent that Perry challenges the decision to excuse the first and
second African American jurors, his Batson claim fails on the merits. With respect to LH, Perry
arguably made the requisite prima facie showing, because “a ‘pattern’ of strikes against black
jurors included in the particular venire might give rise to an inference of discrimination.” Batson,
476 U.S. at 97. The burden then shifted to the prosecutor, who explained that he was striking LH
because she had several relatives who were police officers, she had referenced working with
children, she described herself as a motivational speaker, she described her relationship in an odd
way, and she had weekday classes to attend.

This satisfied the State’s burden, because the

prosecutor’s “justification need not be persuasive,” as long as it is race-neutral.

Harris v.

Haeberlin, 752 F.3d 1054, 1059 (6th Cir. 2014).
The third step of the Batson inquiry requires the trial court to evaluate the credibility of the
State’s proffered reasons to determine whether the defendant has shown intentional race-based
discrimination. See Akins v. Easterling, 648 F.3d 380, 392 (6th Cir. 2011). This is a question of
fact, and we “presume the [Michigan] court’s factual findings to be sound unless [Perry] rebuts
the ‘presumption of correctness by clear and convincing evidence.’” Id. at 392-93 (citing MillerEl v. Dretke, 545 U.S. 231,240 (2005)).
The trial court did not clearly err in finding that the prosecutor “provided a neutral
explanation as to why [LH] was excused.” All of the reasons offered by the prosecutor were
supported by the prosecutor’s prior colloquy with [LH]. And although some of the proffered
reasons—[LH]’s familial relationships with police officers and her work with children—might

*
(

*

No. 18-2232
-5- '
have proven advantageous to the prosecutor, the prosecutor explained that he was “trying to make
a gesture to demonstrate to the rest of the jurors that I could be nice or that I could be
accommodating” by respecting [LH’s] class schedule.
Perry has failed to sustain his burden of persuasion. Accordingly, we AFFIRM the district
court’s judgment.

ENTERED BY ORDER OP THE COURT

Deborah S. Hunt, Clerk

I

*

i

App'x: B
EASTERN DISTRICT OF MICHIGAN FEDERAL COURT OPINION

1

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1545

Page 1 of 30

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JERMOND PERRY,
Petitioner,

Case Number: 2:12-CV-l 1469
HONORABLE VICTORIA A. ROBERTS

v.
JEFFREY WOODS,
Respondent.

/

OPINION AND ORDER DENYING PETITION FOR WRIT OF HABEAS
CORPUS AND GRANTING CERTIFICATE OF APPEALABILITY IN PART
This matter is before the Court on Petitioner Jermond Perry’s petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2254. Petitioner was convicted of two counts of
first-degree murder, one count of being a felon in possession of a firearm, and one count
of possession of a firearm during the commission of a felony (felony-firearm). Petitioner
raises nine claims for habeas corpus relief. Respondent, through the Attorney General’s
Office, filed an answer in opposition, arguing that certain of Petitioner’s claims are
procedurally defaulted and that all of the claims lack merit.
The Court finds no basis for habeas corpus relief and denies the petition.
I.

Background
Petitioner’s convictions arise from the shooting deaths of Dennis and Andrea Perry

(Petitioner is unrelated to either victim) at their home in the City of Detroit on May 10,
2003. The couple’s six-year-old son, James, was present during the shooting. He told a

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1546

Page 2 of 30

police officer that armed men stormed into the house, forced his parents by gunpoint into
the basement, and that he then heard nearly two-dozen gunshots. Wayne County
Assistant Medical Examiner Dr. Francisco Diaz testified that he performed autopsies on
both victims. He determined that Dennis Perry sustained twelve gunshot wounds and one
shotgun wound. Andrea Perry sustained nine gunshot wounds.
Leonora Jenkins, Petitioner’s then-girlfriend, testified that she was at Petitioner’s
house on the night of May 9, 2003. At some point late in the evening, she, Petitioner,
and Thomas Young left the home in one car, and Donte Hamilton and Renesia Burrell left
in a different car. Young provided directions to a home on Princeton Street. When they
arrived, Petitioner and Young exited the car, each carried a gun. Hamilton also
approached the home. Jenkins remained in the car. The three men entered the home and
stayed for approximately five to ten minutes. Jenkins testified that she heard gunshots,
then saw the three men quickly exit the home. Everyone drove back to Petitioner’s
house, where Jenkins saw Petitioner, Young, and Hamilton sitting at a table, passing out
money.
Jason Lindsey testified that he lived across the street from Petitioner’s house and
visited the home around midnight on May 9, 2003. Petitioner, Hamilton, Young, Burrell,
and Jenkins were at the home when he arrived. Lindsey saw four bags of marijuana on
the table and observed that Young carried a shotgun. He heard Young, Hamilton and
Petitioner discuss breaking into someone’s home earlier in the evening because there was
money or drugs in the home. Young said he believed he had been struck in the hand by
2

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1547

Page 3 of 30

one of Petitioner’s gunshots. Young also stated that he hoped that the people at the home
were dead because they had seen his face. Lindsey testified that Petitioner said he fired
his gun and that either Petitioner or Young said they shot the victims in the basement
because there were children on the first floor.
Petitioner did not testify in his own defense. A jury convicted him in Wayne
County Circuit Court. The court sentenced him to: life in prison for the first-degree
murder convictions; three to five years for the felon in possession conviction; and
two-years for the felony-firearm conviction.
Petitioner filed a motion for a new trial alleging an improper communication
occurred between the officer-in-charge and the jury. Following the testimony of two
witnesses at an evidentiary hearing, the trial court denied the motion after finding the
witnesses not credible. Petitioner filed a second motion for new trial on the ground that
newly discovered evidence from two co-defendants established that he was not involved
in the murder. The trial court held an evidentiary hearing. Both co-defendants testified.
The trial court denied the motion.
Petitioner filed an appeal of right in the Michigan Court of Appeals raising these
claims: (i) police officer engaged in improper ex parte communications with the jury; (ii)
the prosecutor exercised peremptory challenges to strike three jurors solely on the basis of
race; (iii) hearsay testimony was improperly admitted; and (iv) a new trial is warranted
because two co-defendants exonerated Petitioner at a post-conviction hearing. The
Michigan Court of Appeals affirmed Petitioner’s convictions. People v. Perry, No.
3

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1548

Page 4 of 30

294223, 2011 WL 118809 (Mich. Ct. App. Jan. 13, 2011).
Petitioner raised the same claims in an application for leave to appeal in the
Michigan Supreme Court. The Michigan Supreme Court denied leave to appeal. People
v. Perry, 490 Mich. (Mich. Sept. 26, 2011).
Petitioner filed a habeas corpus petition raising the same claims raised on direct
appeal in the state court. He then filed a motion to amend the petition and to hold the
petition in abeyance to exhaust additional claims in state court. The Court granted the
motion.
Petitioner filed a motion for relief from judgment in the trial court, raising these
claims: (i) insufficient evidence sustained Petitioner’s convictions; (ii) the prosecutor
committed misconduct; (iii) ineffective assistance of trial counsel; and (iv) ineffective
assistance of appellate counsel. The trial court denied the motion. People v. Perry, No.
03-11974 (Wayne County Cir. Ct. Feb. 21, 2014). The Michigan Court of Appeals
denied Petitioner’s application for leave to appeal. People v. Perry, No. 322933 (Mich.
Ct. App. Sept. 15, 2014). Petitioner sought leave to appeal in the Michigan Supreme
Court. The Michigan Supreme Court denied leave to appeal, but remanded to the circuit
court to correct the judgment of sentence to reflect only two first-degree murder
convictions.1 People v. Perry, 497 Mich. 1023 (Mich. May 27, 2015).

1 Petitioner had been convicted of two counts of first-degree premeditated murder
and two counts of first-degree felony murder. In such cases, Michigan law provides that
a defendant is to receive only one conviction of first-degree murder, supported by two
theories. Petitioner’s judgment of sentence incorrectly stated that he had been convicted
4

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1549

Page 5 of 30

Petitioner returned to this Court and asked for the stay to be lifted. The Court
granted the request. The petition raises these claims:
I.

The trial judge erred in denying a motion for new trial where testimony at
an evidentiary hearing established that the officer in charge engaged in ex
parte communications with the jury.

II.

The trial court violated Petitioner’s federal constitutional right to equal
protection and a jury drawn from a cross-section of the community when it
denied defendant’s Batson objection and permitted the prosecutor to strike
three black jurors without stating sufficient race-neutral, non-pretextual
reasons for his challenges.

III.

An abundance of hearsay was erroneously admitted at trial, which unfairly
bolstered the accusations against the defendant and denied him a fair trial.

IV.

Petitioner was denied a fair trial by the admission of damaging hearsay
testimony from other individuals who were allegedly involved in the
shooting.

V.

Petitioner is entitled to a new trial based on testimony presented at a post­
conviction hearing, where codefendants Thomas Young and Donte
Hamilton testified that Mr. Perry was not present at the crime scene and that
Petitioner did not commit the crimes for which he was convicted.

VI.

There was insufficient evidence to sustain Petitioner’s conviction beyond a
reasonable doubt.

VII.

Petitioner was denied due process and a fair trial when the prosecutor (a)
failed to disclose exculpatory evidence, (b) improperly appealed to the
jury’s sympathy by repeatedly referring to the crime victims’ children in
closing statement, (c) mischaracterized evidence and introduced facts not in
evidence; (d) vouched for the credibility of Leonora Jenkins and Jason
Lindsey and questioned the credibility of Renesia Burrell, (e) improperly
injected personal opinion regarding the evidence; and (f) failed to
investigate the possibility that prosecution witnesses lied.

of four counts of first-degree murder.
5

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1550

Page 6 of 30

VIII. Petitioner was denied his constitutional right to the effective assistance of
counsel because counsel failed to object to prosecutorial misconduct and
failed to call co-defendants Thomas Young and Donte Hamilton as
witnesses.
IX.

II.

Petitioner had ineffective assistance of counsel on appeal and is actually
innocent.

Standard
Review of this case is governed by the Antiterrorism and Effective Death Penalty

Act of 1996 (“AEDPA”). Under the AEDPA, a state prisoner is entitled to a writ of
habeas corpus only if he can show that the state court’s adjudication of his claims (1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d).
A decision of a state court is “contrary to” clearly established federal law if the
state court arrives at a conclusion opposite to that reached by the Supreme Court on a
question of law or if the state court decides a case differently than the Supreme Court has
on a set of materially indistinguishable facts. Williams v. Taylor, 529 U.S. 362, 405
(2000). An “unreasonable application” occurs when “a state court decision unreasonably
applies the law of [the Supreme Court] to the facts of a prisoner's case.” Id. at 408. “[A]
federal habeas court may not issue the writ simply because that court concludes in its
independent judgment that the relevant state-court decision applied clearly established

6

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1551

Page 7 of 30

federal law erroneously or incorrectly.” Id. at 411.
The Supreme Court has explained that “[a] federal court’s collateral review of a
state-court decision must be consistent with the respect due state courts in our federal
system.” Miller-El v. Cockrell, 537 U.S. 322, 340 (2003). The “AEDPA thus imposes a
‘highly deferential standard for evaluating state-court rulings,’ and ‘demands that
state-court decisions be given the benefit of the doubt.’” Renico v. Lett, 559 U.S. 766,
773 (2010) (quoting Lindh v. Murphy, 521 U.S. 320, 333 n. 7 (1997); Woodford v.
Visciotti, 537 U.S. 19, 24 (2002) (per curiam)). “[A] state court’s determination that a
claim lacks merit precludes federal habeas relief so long as ‘fairminded jurists could
disagree’ on the correctness of the state court’s decision.” Harrington v. Richter, 562
U.S. 86, 101 (2011). The Supreme Court emphasized “that even a strong case for relief
does not mean the state court's contrary conclusion was unreasonable.” Id. at 102.
Furthermore, pursuant to § 2254(d), “a habeas court must determine what arguments or
theories supported or ... could have supported, the state court's decision; and then it must
ask whether it is possible fairminded jurists could disagree that those arguments or
theories are inconsistent with the holding in a prior decision of th[e Supreme] Court.” Id.
Although 28 U.S.C. § 2254(d), as amended by the AEDPA, does not completely
bar federal courts from relitigating claims that have previously been rejected in the state
courts, it preserves the authority for a federal court to grant habeas relief only “in cases
where there is no possibility fairminded jurists could disagree that the state court’s
decision conflicts with” Supreme Court precedent. Id. Indeed, “Section 2254(d) reflects
7

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1552

Page 8 of 30

the view that habeas corpus is a ‘guard against extreme malfunctions in the state criminal
justice systems,’ not a substitute for ordinary error correction through appeal.” Id.
(quoting Jackson v. Virginia, 443 U.S. 307, 332 n. 5 (1979)) (Stevens, J., concurring)).
Therefore, in order to obtain habeas relief in federal court, a state prisoner is required to
show that the state court’s rejection of his claim “was so lacking in justification that there
was an error well understood and comprehended in existing law beyond any possibility
for fairminded disagreement.” Id. at 103, 131 S. Ct. at 786-87.
Additionally, a state court’s factual determinations are entitled to a presumption of
correctness on federal habeas review. See 28 U.S.C. § 2254(e)(1). A petitioner may rebut
this presumption with clear and convincing evidence. See Warren v. Smith, 161 F.3d 358,
360-61 (6th Cir. 1998). Moreover, habeas review is “limited to the record that was before
the state court.” Cullen v. Pinholster, 563 U.S. 170, 181 (2011).
III.

Discussion
A.

Procedural Default

Respondent argues that several of Petitioner’s claims are procedurally defaulted.
“[Fjederal courts are not required to address a procedural-default issue before deciding
against the petitioner on the merits.” Hudson v. Jones, 351 F.3d 212, 215 (6th Cir. 2003),
citing Lambrix v. Singletary, 520 U.S. 518, 525 (1997). “Judicial economy might counsel
giving the [other] question priority, for example, if it were easily resolvable against the
habeas petitioner, whereas the procedural-bar issue involved complicated issues of state
law.” Lambrix, 520 U.S. at 525. In this case, the Court finds that the interests of judicial
8

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1553

Page 9 of 30

economy are best served by addressing the merits of Petitioner’s claims.
B.

Ex Parte Communication With Jury

Petitioner’s first claim for relief concerns an allegation that improper
communications occurred between the officer in charge and the jury.
The trial court held an evidentiary hearing; Nicole Beedle, a friend and former co­
worker of Petitioner’s, and Jill Baker-Perry, Petitioner’s mother, testified. Beedle and
Baker-Perry testified that after the jury had been selected but before testimony began, the
officer in charge motioned to the jurors who were waiting in a hallway outside the
courtroom to gather together. Beedle and Baker-Perry then saw him speak to the jurors
but could not hear what he said. The officer then escorted the jurors into the jury room.
The trial court denied the motion for new trial finding the witnesses lacked
credibility. On direct appeal, the Michigan Court of Appeals found that the record
supported the trial court’s holding that the witnesses’ accounts were incredible and denied
relief. Perry, 2011 WL 118809 at *l-*2.
“As a matter of law, clearly established Supreme Court precedent requires that a
criminal defendant be afforded the right to confront the evidence and the witnesses
against him, and the right to a jury that considers only the evidence presented at trial.”
Doan v. Brigano, 237 F.3d 722, 733 n.7 (6th Cir. 2001) (citations omitted), overruled on
other grounds by Wiggins v. Smith, 539 U.S. 510 (2003). The exposure of a juror or jury
to “extrinsic evidence or other extraneous influence violates a defendant’s Sixth
Amendment rights,. .. and a state court decision that conflicts with this rule may justify
9

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1554

Page 10 of 30

habeas relief under the standard set forth in the AEDPA.” Fletcher v. McKee, 355 Fed.
App’x 935, 937 (6th Cir. 2009). The right to an impartial jury imposes on the trial judge
the duty to investigate allegations of external jury influences. Remmer v. United States,
347 U.S. 227, 229-230 (1954).
The trial court heard testimony regarding the possibility of an external influence on
the jury and found the witnesses not credible. On habeas corpus review, federal courts
must give “great deference” to state court credibility determinations. Howell v. Hodge,
710 F.3d 381, 386 (6th Cir. 2013) (quotation omitted). Since the state court found the
testimony of these witnesses incredible, its decision finding no violation of Petitioner’s
right to a fair and impartial jury, was reasonable.
Habeas relief is denied on this claim.
C.

Batson Claim

Petitioner next says that his rights under Batson v. Kentucky, 476 U.S. 79 (1986),
were violated when the prosecutor used three peremptory challenges and the state court
failed to require the prosecutor to state a race-neutral reason for the challenges.
The Equal Protection Clause of the Fourteenth Amendment commands that “no
State shall... deny to any person within its jurisdiction the equal protection of the law.”
U.S. Const, amend. XIV, § 1. This Clause prohibits a prosecutor from using a
peremptory challenge to exclude members of the jury venire because of their race.
Batson v. Kentucky, 476 U.S. 79, 89 (1986). In Batson, the Supreme Court articulated a
three-step process for evaluating claims when a prosecutor has used peremptory
10

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1555

Page 11 of 30

challenges in a manner violating the Equal Protection Clause. Id. at 96-98. First, the
court must determine whether the defendant made a prima facie showing that the
prosecutor exercised a peremptory challenge on the basis of race. Id. at 96-97. Second, if
the showing is made, the burden shifts to the prosecutor to present a race-neutral
explanation for striking the juror. Id. at 97-98. “Although the prosecutor must present a
comprehensible reason, ‘[t]he second step of this process does not demand an explanation
that is persuasive, or even plausible’; so long as the reason is not inherently
discriminatory, it suffices.” Rice v. Collins, 546 U.S. 333, 338 (2006), quoting Purkett v.
Elem, 514 U.S. 765, 767-68 (1995). Third, if a race-neutral explanation is offered, the
court must then determine whether the defendant carried the burden to prove purposeful
discrimination. Batson, A16 U.S. at 98.
In this case, after the jury was selected and outside the presence of the newlyempaneled jury, the trial court asked defense counsel whether he wanted to make a record
with respect to the Batson issue. Defense counsel responded:
Your Honor, the only issue is I was challenging the release of Loretta Holley by
the prosecutor. She was the third African American. In fact, the third African
American female that the prosecutor released.
At that point in time he only had one other individual that he had released,
and that was Mr. Mero.
So that’s why I’m making a challenge because he had released two other
African Americans at the time he released Ms. Holley.
3/8/2004 Tr. at 134, ECF No. 16-2, Pg. ID 481.
In response, the prosecutor stated that numerous factors contributed to his exercise
11

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1556

Page 12 of 30

of a peremptory challenge to excuse Ms. Holley. He noted that she had several police
officer relatives and came across as an overly sympathetic person. Ms. Holley
characterized herself as a motivational speaker and the prosecutor expressed a dislike for
motivational speakers. The prosecutor also explained that Ms. Holley was attending
school and her classes began at 4:00 p.m. on Mondays, Wednesdays, and Thursdays. The
prosecutor thought the rest of the jury would view him favorably if he respected Ms.
Holley’s class schedule. Id. at 134-35, ECF No. 16-2, Pg. ID 481-82. The trial court held
that this satisfied Batson’s requirement that the prosecutor provide a race-neutral
explanation for the strike. Id.
The Michigan Court of Appeals found no error in the trial court’s denial of the
Batson challenge. After reciting the relevant constitutional standard, the state court held
that the trial court was justified to require the prosecutor to provide an explanation only
for the peremptory strike of Ms. Holley and not for the other two female African
American prospective jurors because defense counsel only raised a Batson challenge as to
Ms. Holley. Perry, 2011 WL 11809 at *2-*3.
Under AEDPA’s deferential standard of review, the Court finds that the state
court’s decision was not unreasonable. The prosecutor offered an explanation for Ms.
Holley’s excusal that was race-neutral. The Court discerns no discriminatory intent.
Also, because defense counsel specifically limited his objection to the use of a
peremptory challenge to excuse Ms. Holley, the court did not err in not requiring the
prosecutor to offer an explanation for the challenge to two other prospective jurors.
12

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1557

Page 13 of 30

The state court’s decision is neither contrary to, nor an unreasonable application
of, Federal law as established in Batson; this claim is denied.
D.

Evidentiary Claims
1.

Victims’ Son’s Hearsay Statement

Petitioner argues that the trial court violated his right to a fair trial when it allowed
police officers Gina Gallow and Anita King to testify as to what the victim’s son, James,
told them after the shooting. The trial court admitted the testimony under the excited
utterance exception to the hearsay rule.2
The Michigan Court of Appeals held that the out-of-court statements from James
were properly admitted under the excited utterance exception even though the statements
were not made immediately following the shooting. Perry, 2011 WL 118809 at *3-*4.
The court of appeals accorded the trial court’s determination that the statements were
made under the stress of the event “wide discretion.” Id. To the extent that Petitioner
argues that the admission of this evidence violated Michigan Rules of Evidence, he fails
to allege a basis for federal habeas corpus relief. Errors of state law, particularly the
alleged improper admission of evidence, do not allege a constitutional violation upon

2 The Sixth Amendment’s Confrontation Clause prohibits the admission of testimonial
statements of a witness who did not appear at trial unless the witness is unavailable and the
defendant previously had an opportunity to conduct cross-examination. Crawford v.
Washington, 541 U.S. 36, 53-54 (2004). Petitioner does not challenge the admission of this
testimony under the Confrontation Clause (nor did he raise a Confrontation Clause claim in state
court). Had he done so, the same harmless error analysis applied to the hearsay violation would
make relief unavailable even if the testimony violated the Confrontation Clause. See Lilly v.
Virginia, 527 U.S. 116, 140 (1999); Delaware v. VanArsdall, 475 U.S. at 681-84 (1986).
13

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1558

Page 14 of 30

which habeas relief may be granted. See Estelle v. McGuire, 502 U.S. 62 (1991).
An evidentiary ruling may support habeas relief where it is “so egregious that it
results in a denial of fundamental fairness” and violates the Due Process Clause. Bugh v.
Mitchell, 329 F.3d 496, 512 (6th Cir. 2003). The Supreme Court has “defined the
category of infractions that violate ‘fundamental fairness’ very narrowly.” Dowling v.
United States, 493 U.S. 342, 352 (1990). “Generally, state-court evidentiary rulings
cannot rise to the level of due process violations unless they ‘offend[ ] some principle of
justice so rooted in the traditions and conscience of our people as to be ranked as
fundamental.’” Seymour v. Walker, 224 F.3d 542, 552 (6th Cir. 2000), quoting Montana
v. Egelhoff, 518 U.S. 37, 43 (1996). Even assuming that the admission of these
statements violated the Confrontation Clause, habeas relief may be granted only if a
constitutional error had a “‘substantial and injurious effect or influence in determining the
jury’s verdict.’” Brecht v. Abrahamson, 507 U.S. 619, 623 (1993), quoting Kotteakos v.
United States, 328 U.S. 750, 776 (1946). “When a federal judge in a habeas proceeding
is in grave doubt about whether a trial error of federal law had ‘substantial and injurious
effect or influence in determining the jury’s verdict,’ that error is not harmless. And, the
petitioner must win.” O’Neal v. McAninch, 513 U.S. 432, 436 (1995).
The Michigan Court of Appeals found that even if the trial court’s admission of
James’s statements were error, any error was harmless. Perry, 2011 WL 118809 at *4,
n.5. James’s statements to police did not directly implicate Petitioner. Officer Gallow
testified that James told her that he saw two black men enter his home and lead his
14

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1559

Page 15 of 30

parents by gunpoint into the basement. Officer King testified similarly. In light of the
strong evidence against Petitioner, exclusive of James’ s statements, the record supports
the Michigan Court of Appeals’ harmless error determination. Habeas relief is denied.
2.

Statements of Co-defendants

Petitioner also challenges the admission of purported hearsay statements made by
two co-defendants Young and Hamilton. He objects to the admission of three statements
from Young: (1) Young hoped that the people inside the victims’ home were dead; (2)
Young was going to take the shotgun home; and (3) Young believed that Petitioner shot
Young’s hand. Petitioner argues that these two statements made by Hamilton constituted
impermissible hearsay: (1) Hamilton stating that “it was a bullshit lick [robbery]” and (2)
Hamilton stating that he shot the female victim.
The Michigan Court of Appeals held that all of the statements were properly
admitted. The court held that Young’s first two statements fell under the then existing
state of mind exception to the hearsay rule. Perry, 2011 WL 118809 at *4-*5. The
Michigan Court of Appeals held that Young’s third statement and both of Hamilton’s
statements were not hearsay because they were not offered to prove the truth of the matter
asserted. Id.
The Michigan Court of Appeals’ finding that three of the five challenged
statements were not offered to prove the truth of the matter asserted is supported by the
record. Petitioner fails to identify any clearly established Supreme Court precedent
establishing the admission of non-testimonial, non-hearsay out-of-court statements
15

<•

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18
*

PagelD.1560

Page 16 of 30

violates due process. He cannot show that the admission of this testimony was an
unreasonable application of Supreme Court precedent. Likewise, the admission of
Young’s first two statements, which are non-testimonial hearsay statements, does not
contravene any clearly established law enunciated by the United States Supreme Court.
Any Confrontation Clause claim is meritless because none of the statements was
testimonial in nature. See Crawford v. Washington, 541 U.S. 36, 68 (2004) (holding that
the Confrontation Clause applies only to testimonial statements).
E.

Newly-Discovered Evidence

Next, Petitioner claims that the trial court erred in denying his motion for a new
trial on the basis of newly-discovered evidence.
In December 2009, Petitioner filed a motion for a new trial based on affidavits
from co-defendants Thomas Young and Donte Hamilton, dated October 28, 2008, and
July 8, 2009, respectively. In their affidavits, each man admitted his own participation in
the robbery and murders of Dennis and Andrea Perry, and stated that Petitioner was not
present in the home. The trial court held an evidentiary hearing. They both testified. The
trial court then denied the motion. It found that neither Young nor Hamilton was
credible. The court said the timing of the affidavits - executed five and six years after the
murders - contributed to their lack of credibility as did the fact that Young and Hamilton
were both serving lengthy sentences for the murders and had nothing to lose by testifying
in Petitioner’s favor. The court also found that the evidence was not newly-discovered.
See ECF No. 16-8, Pg. ID 1251-52.
16

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1561

Page 17 of 30

Petitioner’s claim that the denial of his motion for new trial was improper under
state law is not cognizable on habeas corpus review. Pudelski v. Wilson, 576 F.3d 595,
610-11 (6th Cir. 2009) (holding that the petitioner’s claim that the “trial court abused its
discretion and misapplied Ohio law when denying his motion for new trial based on
newly discovered evidence” was “clearly premised on issues of state law,” which are “not
subject to habeas review”). A federal district court must presume the correctness of state
court credibility determinations unless the petitioner rebuts the presumption with clear
and convincing evidence. Gipson v. Haas, 2018 WL 2251730, *2 (6th Cir. May 16,
2018). Petitioner does not offer clear and convincing evidence to rebut the trial court’s
finding that Young’s and Hamilton’s affidavits and their testimony were not credible. In
the absence of such evidence, Petitioner has not shown that the trial court’s denial of his
motion for a new trial was contrary to or an unreasonable application of Supreme Court
precedent.
F.

Sufficiency of the Evidence

In his sixth claim, Petitioner challenges the sufficiency of the evidence. He argues
that no evidence was presented to show that he was present at the murder scene or that he
aided and abetted the crimes.
“[T]he Due Process Clause protects the accused against conviction except upon
proof beyond a reasonable doubt of every fact necessary to constitute the crime with
which he is charged.” In re Winship, 397 U.S. 358, 364 (1970). On direct review, review
of a sufficiency of the evidence challenge must focus on whether “after viewing the
17

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1562

Page 18 of 30

evidence in the light most favorable to the prosecution, any rational trier of fact could
have found the essential elements of the crime beyond a reasonable doubt.” Jackson v.
Virginia, 443 U.S. 307, 319 (1979) (emphasis in original).
“Two layers of deference apply to habeas claims challenging evidentiary
sufficiency.” McGuire v. Ohio, 619 F.3d 623, 631 (6th Cir. 2010), citing Brown v.
Konteh, 567 F.3d 191, 204-05 (6th Cir. 2009). First, the Court “must determine whether,
viewing the trial testimony and exhibits in the light most favorable to the prosecution, any
rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt.” Brown, 567 F.3d at 205, citing Jackson, 443 U.S. at 319. Second, if
the Court were “to conclude that a rational trier of fact could not have found a petitioner
guilty beyond a reasonable doubt, on habeas review, [the Court] must still defer to the
state appellate court’s sufficiency determination as long as it is not unreasonable.” Id.
Under Michigan law, the elements of first-degree felony murder are: (1) the killing
of a human being; (2) with the intent to kill, to do great bodily harm, or to create a very
high risk of death or great bodily harm with knowledge that death or great bodily harm
would be the probable result; (3) while committing, attempting to commit, or assisting in
the commission of any of the felonies enumerated in Mich. Comp. Laws § 750.316.
People v. Smith, 478 Mich. 292, 318-319 (2007). Armed robbery is one of the
enumerated felonies. See People v. Akins, 259 Mich.App. 545, 675 N.W.2d 863, 869
(Mich.Ct.App.2003) ( “[AJrmed robbery [ ] is a well-established predicate felony under
the felony-murder statute.”). The elements of armed robbery are: “(1) an assault, (2) a
18

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1563

Page 19 of 30

felonious taking of property from the victim’s person or presence, and (3) the defendant
must be armed with a weapon described in the statute.” People v. Johnson, 206 Mich.
App. 122, 123, 520 N.W.2d 672, 673 (1994). “To prove felony murder on an aiding and
abetting theory, the prosecution must show that the defendant (1) performed acts or gave
encouragement that assisted in the commission of the killing of a human being, (2) with
intent to kill, to do great bodily harm, or create a high risk of death or great bodily harm
with knowledge that death or great bodily harm was the probable result, (3) while
committing, attempting to commit, or assisting in the commission of the predicate
felony.” Sturges v. Curtin, 2017 WL 3498465, *1 (6th Cir. Aug. 16, 2017).
The Michigan trial court, although not specifically citing Jackson, clearly applied
the Jackson standard and held that sufficient evidence was presented to sustain
Petitioner’s convictions. The trial court found that the prosecution presented witnesses
who testified that Petitioner and his codefendants committed a robbery, during which
Dennis and Andrea Perry were murdered, that Petitioner was involved in the crimes both
in the planning and execution phases, and that he was armed, participated in the robbery,
and discharged his weapon. The trial court found that, viewing this evidence in the light
most favorable to the prosecution, Petitioner’s convictions were supported by sufficient
evidence. See ECF No. 16-22, Pg. ID 1453-56.
Petitioner’s argument essentially asks the Court to reweigh the evidence and to
come to a different conclusion than that reached by the jury. This is not the Court’s role
on habeas review. The Court does not “rely simply upon [its] own personal conceptions
19

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1564

Page 20 of 30

of what evidentiary showings would be sufficient to convince [the Court] of the
petitioner’s guilt.” Brown v. Konteh, 567 F.3d 191, 205 (6th Cir. 2009). Instead, the
Court asks whether the Michigan Court of Appeals “was unreasonable in its conclusion
that a rational trier of fact could find [Petitioner] guilty beyond a reasonable doubt based
upon the evidence presented at trial.” Id. citing Knowles v. Mirzayance, 556 U.S. Ill,
123 (2009) (“The question ‘is not whether a federal court believes the state court’s
determination ... was incorrect but whether that determination was unreasonable - a
substantially higher threshold.’”), quoting Schriro v. Landrigan, 550 U.S. 465, 473
(2007)).
Petitioner is correct that the trial court erred in stating that “all of the witnesses
during trial testified that defendant was armed and took part in the robbery.” ECF No.
16-22, Pg. ID 1454. But this error is not dispositive and may not form the basis for
habeas corpus relief. The trial court correctly stated later in the opinion that “multiple”
witnesses testified in this way. Id. at Pg. ID 1455. The record supports this conclusion.
Leonora Jenkins testified that Petitioner entered the victims’ home while carrying a gun
and that he fled the home after Jenkins heard gunshots. She also testified that after
Petitioner returned to his home Petitioner and two other men distributed money. Jason
Lindsey testified that, after the shooting, Petitioner admitted to firing his gun while inside
the home. This evidence was more than sufficient to sustain the convictions.
Habeas relief is denied on this claim.
G.

Prosecutorial Misconduct
20

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1565

Page 21 of 30

Petitioner raises numerous claims of prosecutorial misconduct. Specifically, he
claims the prosecutor committed misconduct by: (i) failing to disclose exculpatory
evidence; (ii) improperly appealing to the jury’s sympathy by referring to the victim’s
children; (iii) mischaracterizing evidence and introducing facts not in evidence; (iv)
vouching for the credibility of prosecution witnesses and calling defense witness a liar;
(v) improperly injecting his personal opinion regarding the evidence; and (vi) failing to
investigate the possibility that prosecution witnesses were lying.
The “clearly established Federal law” relevant to a habeas court’s review of a
prosecutorial misconduct claim is the Supreme Court’s decision in Darden v. Wainwright,
All U.S. 168, 181 (1986). Parker v. Matthews, 567 U.S. 37, 45 (2012). In Darden, the
Supreme Court held that a “prosecutor’s improper comments will be held to violate the
Constitution only if they ‘so infected the trial with unfairness as to make the resulting
conviction a denial of due process.’” Id., quoting Donnelly v. DeChristoforo, 416 U.S.
637, 643 (1974). This Court must ask whether the Michigan Court of Appeals’ decision
denying Petitioner’s prosecutorial misconduct claims “‘was so lacking in justification that
there was an error well understood and comprehended in existing law beyond any
possibility for fairminded disagreement.’” Parker, 567 U.S. at 47, quoting Harrington,
562 U.S. at 103.
Petitioner claims that the prosecutor violated Brady v. Maryland, 373 U.S. 83
(1963), by failing to disclose that plea agreements entered into by co-defendants Young
and Hamilton provided that, if called to testify at Petitioner’s trial, Petitioner’s co21

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1566

Page 22 of 30

defendants Young and Hamilton would invoke their Fifth Amendment right to remain
silent. The trial court (the last state court to issue a reasoned opinion regarding this
claim) denied this claim without extensive discussion. Despite the lack of a reasoned
opinion, the state court’s decision is nevertheless entitled to deference under the AEDPA.
Wogenstahl v. Mitchell, 668 F.3d 307, 327 (6th Cir. 2012), citing Harrington, 562 U.S. at
98-99.
In Brady v. Maryland, 373 U.S. 83, 87 (1967) the Supreme Court held that
“suppression by the prosecution of evidence favorable to an accused ... violates due
process where the evidence is material, either to guilt or to punishment, irrespective of the
good faith or bad faith of the prosecution.” To demonstrate a Brady violation, (1) “[t]he
evidence at issue must be favorable to the accused, either because it is exculpatory, or
because it is impeaching;” (2) “that evidence must have been suppressed by the State,
either willfully or inadvertently;” and (3) “prejudice must have ensued.” Strickler v.
Greene, 527 U.S. 263, 281-82 (1999).
The record does not support Petitioner’s contention that either Young’s or
Hamilton’s plea agreements included a provision requiring them to invoke their Fifth
Amendment rights. See ECF No. 16-18, Pg. ID 26-30. Instead, the plea agreements
simply provided that the co-defendants would not be required to testify against Petitioner.
Id. Even if the plea agreement included such a provision, it is unclear how this would
have been favorable to Petitioner. The trial court’s decision finding no Brady violation is
reasonable.
22

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1567

Page 23 of 30

Next, Petitioner argues that the prosecutor improperly appealed to the jury’s
sympathy in his opening statement when he talked extensively about the victims’
children, and in his closing argument when he told the jury that the children were left
without a father or a mother. The state court found nothing improper in the prosecutor’s
arguments.
Prosecutors “must obey the cardinal rule that a prosecutor cannot make statements
calculated to incite the passions and prejudices of the jurors.” Broom v. Mitchell, 441
F.3d 392, 412 (6th Cir. 2006) (internal quotation omitted). A prosecutor does not overstep
by appealing to the jurors’ sense of justice. Bedford v. Collins, 567 F.3d 225, 234 (6th
Cir. 2009). The prosecutor’s language was not inflammatory nor does it appear intended
to incite passions or prejudices. The fact that children lost parents may have invoked
sympathy from the jury, but the prosecutor did not ask the jury to convict on that basis.
Also, the trial court instructed the jury to base their decision only on the evidence and the
law, not on their sympathies or prejudices. See Cameron v. Pitcher, 2001 WL 85893, *10
(E.D. Mich. Jan. 4, 2001) (holding that jury instruction advising jurors they were required
to decide facts on basis of properly admitted evidence mitigated prosecutor’s civic duty
argument). The Court finds that the prosecutor’s argument was not improper.
Petitioner argues that the prosecutor mischaracterized the evidence and argued
facts not in evidence during opening statement and closing argument. This claim is
unsupported by the record. The prosecutor’s argument highlights testimony most
favorable to the defense and argues that this evidence supports Petitioner’s guilt. The
23

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1568

Page 24 of 30

prosecutor asks the jury to make reasonable inferences based upon the evidence
presented. None of this is improper.
Petitioner claims that the prosecutor also engaged in misconduct by improperly
vouching for the credibility of witnesses Leonora Jenkins and Jason Lindsey, and
questioning the credibility of Renesia Burrell. Prosecutors may not vouch for a witness’s
credibility. Prosecutorial vouching and an expression of personal opinion regarding the
accused’s guilt “pose two dangers: such comments can convey the impression that
evidence not presented to the jury, but known to the prosecutor, supports the charges
against the defendant and can thus jeopardize the defendant’s right to be tried solely on
the basis of the evidence presented to the jury; and the prosecutor’s opinion carries with it
the imprimatur of the Government and may induce the jury to trust the Government’s
judgment rather than its own view of the evidence.” United States v. Young, 470 U.S. 1,
18-19(1985).
“[T]he Darden standard is a very general one, leaving courts ‘more leeway ... in
reaching outcomes in case-by-case determinations.’” Parker, 567 U.S. at 48, quoting
Yarborough v. Alvarado, 541 U.S. 652, 664 (2004). The prosecutor did not imply that he
had some special information about these witnesses’ credibility. Instead, considered in its
entirety, the prosecutor asked the jury to consider the witnesses’ motives for testifying
and the consistency of their testimony. None of the prosecutor’s arguments amounts to
vouching for witness testimony.
Petitioner’s claim that the prosecutor injected his own personal opinion about
24

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1569

Page 25 of 30

Petitioner’s guilt is similarly meritless. The prosecutor’s arguments focused on the
evidence presented. The prosecutor argued that the evidence supported a finding of
Petitioner’s guilt, but did not suggest that the jury return a guilty verdict based upon the
prosecutor’s personal beliefs. The state court’s rejection of this claim did not violate due
process.
Finally, Petitioner argues that the prosecutor committed misconduct by failing to
investigate the possibility that witnesses Jenkins, Burrell and Lindsey would lie when
they testified at trial. This claim fails because Petitioner fails to show that any of these
witnesses committed perjury or, even assuming they did, that the prosecutor knew or
should have known they would do so.
Habeas relief is denied on this claim.
H.

Ineffective Assistance of Counsel

In his eighth claim, Petitioner argues that habeas relief is warranted because he
received ineffective assistance of counsel. Specifically, he argues that counsel was
ineffective for failing to object to numerous instances of misconduct and for failing to
investigate and call Thomas Young and Donte Hamilton as witnesses.
The AEDPA “erects a formidable barrier to federal habeas relief for prisoners
whose claims have been adjudicated in state court.” Burt v. Titlow, 571 U.S. 12, 19
(2013). The standard for obtaining relief is “‘difficult to meet.’” White v. Woodall, 572
U.S. 415, 419 (2014), quoting Metrish v. Lancaster, 569 U.S. 351, 358 (2013). In the
context of an ineffective assistance of counsel claim under Strickland v. Washington, 466
25

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1570

Page 26 of 30

U.S. 668 (1984), the standard is “all the more difficult” because “[t]he standards created
by Strickland and § 2254(d) are both highly deferential and when the two apply in
tandem, review is doubly so.” Harrington, 562 U.S. at 105 (internal citations and
quotation marks omitted). “[T]he question is not whether counsel’s actions were
reasonable”; but whether “there is any reasonable argument that counsel satisfied
Strickland's deferential standard.” Id.
An ineffective assistance of counsel claim has two components. A petitioner must
show that counsel’s performance was deficient and that the deficiency prejudiced the
defense. Strickland, 466 U.S. at 687. To establish deficient representation, a petitioner
must demonstrate that counsel's representation “fell below an objective standard of
reasonableness.” Id. at 688. In order to establish prejudice, a petitioner must show that,
but for the constitutionally deficient representation, there is a “reasonable probability”
that the outcome of the proceeding would have been different. Id. at 694.
Petitioner argues that counsel was ineffective for failing to object to the
prosecutor’s misconduct. As already discussed, Petitioner failed to show that the
prosecutor engaged in misconduct. Counsel, therefore, was not ineffective for failing to
object on this basis.
Petitioner argues that counsel was also ineffective because he did not call co­
defendants Young and Hamilton as witnesses. The Michigan Court of Appeals rejected
this argument, finding even assuming that Hamilton and Young would have testified at
trial their testimony was inherently suspect, which was confirmed by the trial court’s
26

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1571

Page 27 of 30

finding that both witnesses lacked credibility. Perry, 2011 WL 118809 at *6, n.8. In
addition, counsel would have been reasonable to conclude that the risks associated with
calling two co-defendants to testify far outweighed the potential benefits. Defense
counsel certainly would have had no guarantees that Young and Hamilton would testify
in accord with affidavits they executed over four years after the trial. They just as easily
could have implicated Petitioner. It would have been a risky proposition indeed.
Counsel’s decision not to take this risk was reasonable.
Habeas relief is denied on this claim.
I.

Ineffective Assistance of Appellate Counsel

Petitioner claims that appellate counsel was ineffective because he failed to raise
the claims raised in his motion for relief from judgment on direct appeal.
Strategic and tactical choices regarding which issues to pursue on appeal are
“properly left to the sound professional judgment of counsel.” United States v. Perry,
908 F.2d 56, 59 (6th Cir. 1990). The Supreme Court held that a petitioner does not have a
constitutional right to have appellate counsel raise every non-frivolous issue on appeal.
Jones v. Barnes, 463 U.S. 745, 754 (1983). The Court further stated:
Forjudges to second-guess reasonable professional judgments and impose
on appointed counsel a duty to raise every “colorable” claim suggested by a
client would disserve the .. . goal of vigorous and effective advocacy.. . .
Nothing in the Constitution or our interpretation of that document requires
such a standard.
Id. at 754. “[Tjhere can be no constitutional deficiency in appellate counsel’s failure to
raise meritless issues.” Mapes v. Coyle, 171 F.3d 408, 413 (6th Cir. 1999). None of the
27

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1572

Page 28 of 30

claims Petitioner argues his appellate attorney should have raised on appeal has been
shown to have merit. Therefore, counsel was not ineffective in failing to raise them.
J.

Actual Innocence

Finally, to the extent that Petitioner asserts an independent claim of actual
innocence based upon the affidavits of Young and Hamilton, habeas relief is denied.
Claims of actual innocence based on newly discovered evidence “have never been
held to state a ground for federal habeas relief absent an independent constitutional
violation occurring in the underlying state criminal proceeding.” Herrera v. Collins, 506
U.S. 390, 400 (1993). “[F]ederal habeas courts sit to ensure that individuals are not
imprisoned in violation of the Constitution - not to correct errors of fact.” Id. In House
v. Bell, the Supreme Court declined to answer the question left open in Herrera - whether
a habeas petitioner may bring a freestanding claim of actual innocence. See House v.
Bell, 547 U.S. 518, 555 (2006) (noting that “in a capital case a truly persuasive
demonstration of‘actual innocence’ made after trial would render the execution of a
defendant unconstitutional and warrant federal habeas relief if there were no state avenue
open to process such a claim”).
Citing Herrera and House, the Sixth Circuit ruled that a free-standing claim of
actual innocence based upon newly-discovered evidence does not warrant federal habeas
relief. See Bowman v. Haas, No. 15-1485, 2016 WL 612019, *5 (6th Cir. Feb. 10, 2016)
(holding that a freestanding claim of actual innocence is not cognizable in a non-capital
federal habeas proceeding); Muntaser v. Bradshaw, 429 Fed. App’x 515, 521 (6th Cir.
28

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1573

Page 29 of 30

2011) (“[A]n actual innocence claim operates only to excuse a procedural default so that a
petitioner may bring an independent constitutional challenge . . .Given that [petitioner]
alleges only a free-standing claim to relief on the grounds of actual innocence, his claim
is not cognizable . . . and, accordingly, does not serve as a ground for habeas relief.”).
Habeas relief is denied.
IV.

Certificate of Appealability
Federal Rule of Appellate Procedure 22 provides that an appeal may not proceed

unless a certificate of appealability (“COA”) is issued under 28 U.S.C. § 2253. A COA
may be issued “only if the applicant has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). A petitioner must show “that reasonable
jurists could debate whether (or, for that matter, agree that) the petition should have been
resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (citation
omitted).
Here, jurists of reason could debate the Court’s holding regarding Petitioner’s
Batson claim. Therefore, the Court grants Petitioner a certificate of appealability as to
that issue. The Court finds that reasonable jurists would not debate the Court’s
conclusions with respect to Petitioner’s remaining clams and denies a certificate of
appealability on those claims.
V.

Conclusion
For the reasons stated above, the Court DENIES the petition for a writ of habeas
29

Case 2:12-cv-11469-VAR-PJK ECF No. 17 filed 09/24/18

PagelD.1574

Page 30 of 30

corpus. The Court GRANTS a certificate of appealability on Petitioner’s Batson claim
and DENIES a certificate of appealability with respect to the remaining claims.
SO ORDERED.

S/Victoria A. Roberts
Victoria A. Roberts
United States District Judge
Dated: September 24, 2018
The undersigned certifies that a copy of this
document was served on the attorneys of record
and Jermond Perry by electronic means or U.S.
Mail on September 24, 2018.
s/Linda Vertriest
Deputy Clerk

30

Case 2:12-cv-11469-VAR-PJK ECF No. 18 filed 09/24/18

PagelD.1575

Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JERMOND PERRY,
Petitioner,

Case Number: 2:12-CV-11469
HONORABLE VICTORIA A. ROBERTS

v.

JEFFREY WOODS,
Respondent.

JUDGMENT
Pursuant to this Court’s Order dated September 24, 2018, this cause of action is
DISMISSED.
IT IS ORDERED.
Dated at Detroit, Michigan this

24th

day of September

, 2018.

DAVID J. WEAVER
CLERK OF THE COURT
BY:

APPROVED:

s/ Victoria A. Roberts
VICTORIA A. ROBERTS
UNITED STATES DISTRICT JUDGE

s/ Linda Vertriest

t

App'x: C
MICHIGAN COURT OF APPEALS DIRECT APPEAL OPINION

STATE OF MICHIGAN

DEFENDANTS copy

COURT OF APPEALS

UNPUBLISHED
January 13, 2011

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

No. 294223
Wayne Circuit Court
LC No. 03-011974-FC

v
JERMOND LAWRENCE PERRY,
Defendant-Appellant.

Before: K. F. Kelly, P.J., and Gleicher and Stephens, JJ.
Per Curiam.
Defendant appeals as of right his jury trial convictions of two counts of first-degree,
premeditated murder, MCL 750.316(l)(a), two counts of first-degree, felony-murder, MCL
750.316(l)(b), one count of being a felon in possession of a firearm, MCL 750.224f, and one
count of possession of a firearm during the commission of a felony (felony-firearm), MCL
Defendant was sentenced to life imprisonment for the first-degree murder
750.227b.
convictions, three to five years’ imprisonment for the felon in possession of a firearm conviction,
and two years’ imprisonment for the felony-firearm conviction. We affirm.
I. EXTRINSIC INFLUENCE ON JURY
Defendant first argues that he is entitled to a new trial because ex parte communications
allegedly occurred between the officer in charge and the jury. We disagree. While a trial court’s
factual findings are reviewed for clear error, its decision to deny a motion for a new trial is
reviewed for an abuse of discretion. People v Miller, 482 Mich 540, 544; 759 NW2d 850
(2008). “Clear error exists if the reviewing court is left with a definite and firm conviction that a
mistake has been made.” Id. A trial court abuses its discretion when it chooses an outcome that
falls outside the principled range of outcomes. Id.
At the outset, we note that defendant relies on People v France, 436 Mich 138; 461
NW2d 621 (1990), to argue that he was prejudiced. However, defendant’s reliance is misplaced
because France addressed ex parte communications between the trial court and a deliberating
jury which is prohibited under MCR 6.414(B). Id. at 142-144. Neither of these factors is present
in the instant case. Rather, defendant alleges that the officer in charge had ex parte contact with
the jurors after the jury was selected but before opening statements were presented.
Accordingly, the situation defendant alleges is more properly characterized as an extrinsic
influence on the jury.
-1/

In order to establish that the extrinsic influence was error requiring
reversal, the defendant must initially prove two points. First, the defendant must
prove that the jury was exposed to extraneous influences. Second, the defendant
must establish that these extraneous influences created a real and substantial
possibility that they could have affected the jury’s verdict. Generally, in proving
this second point, the defendant will demonstrate that the extraneous influence is
substantially related to a material aspect of the case and that there is a direct
connection between the extrinsic material and the adverse verdict. [.People v
Budzyn, 456 Mich 77, 88-89; 566 NW2d 229 (1997) (citations omitted).]
Here, two witnesses, Nicole Beedle, a co-worker, and defendant’s mother, Jill Perry,
testified at a post-trial evidentiary hearing that the officer in charge allegedly gathered the jurors
at the end of the hallway outside the courtroom and escorted them into a separate room for up to
ten minutes. Ultimately, the trial judge found the witnesses’ accounts to be incredible and he
denied defendant’s motion. After our review of the record, we cannot disagree with his
conclusion. Both witnesses misidentified the officer as Officer “Menendez,”1 although Jill
testified that she had obtained the officer’s business card. Neither witness heard what, if
anything, the officer said to the jurors. Jill thought the trial lasted two months, when it only
lasted four days. Jill also thought that the officer in charge was the only witness who testified at
trial, when there were actually 16 witnesses. Jill further testified that, by the time she and her
family entered the courtroom several minutes after seeing the jurors and the officer in charge
enter into this other room, Officer “Menendez” was already seated at the prosecutor’s table.
Regarding Beedle’s testimony, even though she said she attended every day of trial, she
stated that she was not sure if Officer “Menendez” testified at the trial.2 Additionally, Beedle
was not sure if these “jurors” were even wearing juror badges and she changed her story while
testifying. Initially, Beedle said that the next time she saw the jurors, after they entered the room
with Officer “Menendez,” was when they entered the courtroom through the jury room door.
But later, Beedle stated that she saw the jurors enter the courtroom through the regular entrance,
then enter the jury room, before exiting out of that jury room door. “[I]f resolution of a disputed
factual question turns on the credibility of witnesses or the weight of the evidence, [reviewing
courts should] defer to the trial court, which had a superior opportunity to evaluate these
matters.” People v Sexton, 461 Mich 746, 752; 609 NW2d 822 (2000). Thus, given the
credibility concerns raised through the witnesses’ testimony, the trial court was within its right to
deem the testimony unreliable and we should not disturb its findings. Sexton, 461 Mich at 752.
Accordingly, defendant failed to establish that the jury was exposed to any extraneous influence.
The trial court did not abuse its discretion by denying defendant’s motion for a new trial.

1 The,officer in charge’s name was Officer Moises Jimenez.
2 Officer Jimenez did testify at trial.

-2-

II. BATSON3 OBJECTION
Defendant next argues that he is entitled to a new trial because the prosecutor allegedly
discriminated against three black members of the jury pool when he used peremptory challenges
to remove them from the jury pool. We disagree. A Boston challenge presents mixed questions
of fact and law that we review under the clearly erroneous and de novo standards, respectively.
People v Knight, 473 Mich 324, 342-345; 701 NW2d 715 (2005).
The Equal Protection Clause of the Fourteenth Amendment prohibits a party from
exercising peremptory challenges to remove a prospective juror solely on the basis of the
person’s race. Knight, 473 Mich at 335. The party opposing a peremptory challenge must make
a prima facie showing of discrimination. Id. at 336, citing Batson v Kentucky, 476 US 79, 96;
106 S Ct 1712; 90 L Ed 2d 69 (1986). Once a party establishes a prima facie case the burden
shifts to the proponent of the peremptory challenge to articulate a race-neutral basis for the
challenge. Knight, 473 Mich at 337. If the proponent provides a race-neutral explanation, the
trial court must then determine whether the opponent of the challenge has proved purposeful
discrimination. Knight, 473 Mich at 337-338. The establishment of purposeful discrimination
“comes down to whether the trial court finds the . . . race-neutral explanations to be credible.”
People v Bell, 473 Mich 275, 283; 702 NW2d 128 (2005), amended 474 Mich 1201 (2005),
quoting Miller-El v Cockrell, 537 US 322, 339; 123 S Ct 1029; 154 L Ed 2d 931 (2003).
Here, defendant contends that the trial judge erred by failing to perform this Batson
analysis for all three black jurors that were peremptorily dismissed. However, at trial, defendant
only objected to the last one dismissed, juror Holley:
Your Honor, the only issue is I was challenging the release of Loretta
Holley by the prosecutor. She was the third African American. In fact, the third
African American female that the prosecutor released.
At that point in time he only had one other individual that he had released,
and that was Mr. Mero.
So that’s why I’m making a challenge because he had released two other
African Americans at the time he released Ms. Holley. [Emphasis added.]
Consequently, the prosecutor only provided an explanation for his decision to use a peremptory
challenge on Holley. The trial court, as well, only focused on the use of a challenge on Holley.
At no time did defense counsel object to the lack of discussion involving the other two jurors.
Accordingly, we conclude that defendant has waived his argument on appeal that the trial court

3 Batson v Ky, 476 US 79; 106 S Ct 1712; 90 L Ed 2d 69 (1986).

-3-

/

erred by not applying the Batson analysis with respect to the other two jurors. See Knight, 473
Mich at 346-347. Defendant’s Batson claim fails.4
III. EVIDENTIARY RULINGS
Defendant next claims that several evidentiary errors deprived him of a fair trial. A trial
court’s decision to admit evidence is reviewed for a clear abuse of discretion. People v Aldrich,
246 Mich App 101, 113; 631 NW2d 67 (2001). “An abuse of discretion occurs when the court
chooses an outcome that falls outside the range of reasonable and principled outcomes.” People
v Unger, 278 Mich App 210, 217; 749 NW2d 272 (2008). To the extent that defendant’s
arguments are unpreserved, our review is for plain error affecting substantial rights. People v
Hawkins, 245 Mich App 439, 447; 628 NW2d 105 (2001). Reversal for unpreserved matters is
warranted only “if the defendant is actually innocent or the error seriously undermined the
fairness, integrity, or public reputation of the trial.” People v Pipes, 475 Mich 267, 274; 715
NW2d 290 (2006).
A. OUT-OF-COURT STATEMENTS OF JAMES
Defendant first contends that the trial court abused its direction when it admitted a
statement that the murder victims’ six-year-old son, James, made to Officer Gina Gallow
because it did not quality as an excited utterance. We disagree. MRE 803(2) provides an
“excited utterance” exception to the bar on hearsay: “A statement relating to a startling event or
condition made while the declarant was under the stress of excitement caused by the event or
condition.” There are two primary requirements for a statement to be admissible under the
excited utterance exception: “1) that there be a startling event, and 2) that the resulting statement
be made while under the excitement caused by the event.” People v Smith, 456 Mich 543, 550;
581 NW2d 654 (1998). “It is the lack of capacity to fabricate, not the lack of time to fabricate,
that is the focus of the excited utterance rule. The question is not strictly one of time, but of the
possibility for conscious reflection.” Id. at 551.
James made the complained of statements to Officer Gallow the day after the murders.
Officer Gallow was the first to respond to the scene and James indicated to her that armed men
stormed into the house and led his parents by gunpoint into the basement. According to Officer
Gallow, James said that he later heard nearly two-dozen gunshots. Certainly, given the lapse of
time between James’ statements and the shootings, the question whether his statements
constituted excited utterances presents a close evidentiary question. However, under the
circumstances, we cannot conclude that the trial court abused its discretion by admitting James’

4 We note that Knight does direct courts to apply the Batson analysis to all strikes in an alleged
pattern, even if the prior strikes were not specifically objected to earlier. Knight, 473 Mich at
346. However, after our review of the record, we can discern no pattern of strikes evincing a
prima facie showing of discrimination.

-4-

out-of-court statements. Given James’ demeanor at the time he made the statements, it is a
reasonable conclusion that he was still under the stress of perceiving his parents’ murders.
Although Officer Gallow testified that James was calm but fearful, several other testimonies
indicated that he was crying and frantic. Further, contrary to defendant’s argument, the startling
event includes the entire event, from the moment the gunmen entered the house, to the gunshots
being fired, and arguably until the police arrived at the scene the next day. Because a trial
court’s determination of whether a declarant’s statement was made while under the stress of an
event is given “wide discretion,” this Court will defer on these close calls. Id. at 552; see also
People v Bahoda, 448 Mich 261, 289; 531 NW2d 659 (1995) (stating that a trial court’s decision
on a close evidentiary question cannot be an abuse of discretion). Accordingly, the trial court did
not abuse its discretion when it found that James’s statement to Officer Gallow qualified as an
excited utterance exception to hearsay.5
B. STATEMENTS MADE BY CODEFENDANTS, YOUNG AND HAMILTON
Defendant also argues that he is entitled to a new trial because hearsay statements made
by the two codefendants, Young and Hamilton, were permitted into evidence. Specifically, with
respect to Young, defendant takes issue with three statements: (1) Young hoped that the people
inside the victims’ home were dead, (2) Young was going to take the shotgun home, and (3)
Young believed that defendant shot Young’s hand, Similarly, defendant contends two
statements made by Hamilton constituted impermissible hearsay: (1) Hamilton stating that “it
was a bullshit lick”6 and (2) Hamilton saying that he shot the female victim. Defendant did not
object to the admission of any of these statements at trial.
Generally, hearsay is inadmissible. MRE 802. But not all out-of-court statements are
hearsay; only statements that are offered to establish the truth of the matter asserted are hearsay.
MRE 801; People v Stamper, 480 Mich 1, 4; 742 NW2d 607 (2007). Moreover, even if a
statement is hearsay, it may be admissible under one of the exceptions to the hearsay rule. See
MRE 803; MRE 804.
Here, Young’s first two statements fall under the then existing state of mind exception to
hearsay, MRE 803(3), which states

5 We note that to the extent that it was error to admit the statement, any error was harmless.
Evidentiary error does not warrant reversal unless it involves a substantial right, and after an
examination of the entire cause, it affirmatively appears that it is more probable than not that the
error was not outcome determinative. People v Moorer, 262 Mich App 64, 74; 683 NW2d 736
(2004). Given that James’s statement to Officer Gallow did not introduce anything new for the
jurors, we do not believe any evidentiary error was outcome determinative.

6 There was testimony presented that a “lick” is slang for robbing or breaking into somebody’s
house.
-5-

A statement of the declarant’s then existing state of mind, emotion, sensation or
physical condition (such as intent, plan, motive, design, mental feeling, pain, and
bodily health), but riot including a statement of memory or belief to prove the fact
remembered or believed unless it relates to the execution, revocation
identification, or terms of declarant’s will.
Clearly, Young stating that he wished that the people were dead conveyed Young’s then existing
state of mind. Similarly, Young stating that he was going to take the shotgun home also
conveyed his then existing state of mind or his plan at the time. As a result, these statements
were hearsay, but fell under a recognized exception to hearsay and were admissible. Moorer,
262 Mich App at 68-69. Defendant has failed to demonstrate any error with respect to the
admission of these statements.
With regard to Young’s third statement, we are of the view that it was not offered to
prove the truth of the matter asserted, i.e., that defendant shot Young’s hand. When viewing the
statement in the context of prosecution’s examination, it is clear that the prosecutor did not ask
the question to determine whether defendant was the actual cause of Young’s injury. Rather, the
statement was offered merely to show that defendant was present at the shooting. Thus, the
statement was not hearsay and was not excludable. See People v Mesik (On Reconsideration),
285 Mich App 535, 540; 775 NW2d 857 (2009). We are of the same opinion with regard to
Hamilton’s statements describing the incident as a “bullshit lick” and indicating that he shot the
female victim. Again, the prosecutor did not introduce these statements to prove the truth of the
matters asserted therein. Rather, the prosecutor introduced the testimony to show the
individuals’ roles in the altercation and to put into context defendant’s own admission that he
was there and was “just shooting.” Accordingly, none of these statements constituted
impermissible hearsay. Defendant has failed to show that any error occurred with regard to the
admission of these statements. Accordingly, defendant’s claim fails.
V. NEWLY DISCOVERED EVIDENCE
Finally, defendant argues that the trial court erred by denying his motion for a new trial,
which was based on newly discovered evidence. Specifically, the motion asserted that
codefendants Young and Hamilton would testify that defendant was not involved in the murders.
We disagree. As noted, we review a trial court’s decision on a motion for a new trial for an
abuse of discretion, while its findings of fact are reviewed for clear error. People v Cress, 468
Mich 678, 691; 664 NW2d 174 (2003).
In order to obtain a new trial on the basis of newly discovered evidence, a defendant must
show the following: “(1) the evidence itself, not merely its materiality, was newly discovered;
(2) the newly discovered evidence was not cumulative; (3) the party could not, using reasonable
diligence, have discovered and produced the evidence at trial; and (4) the new evidence makes a
different result probable on retrial.” Id. at 692 (internal quotations omitted).
Here, the testimonies of Young and Hamilton are not newly discovered evidence. Rather,
their testimonies were merely newly available. This Court recently addressed the same issue
NW2d___(2010). The Court
defendant now raises in People v Terrell,___Mich App
held:
-6-

[W]hen a defendant knew or should have known that his codefendant could
provide exculpatory testimony, but does not obtain that testimony because the
codefendant invokes their privilege against self-incrimination, the codefendant’s
post-trial statements do not constitute newly discovered evidence, but merely
newly available evidence. [Id.]
By the time defendant’s trial started, Young and Hamilton had already pleaded guilty.
Accordingly, defendant knew or should have known that, since Young and Hamilton were
claiming responsibility for the crimes, they could have offered material testimony regarding
defendant’s role in the charged crimes. Defendant’s argument that Young and Hamilton could
have chosen to not testify, by claiming their rights against self-incrimination, is of no
(slip op at 9-10). Accordingly, defendant
Mich App at
consequence.7 See Terrell,
cannot meet the first element in the four-part test established in Cress, 468 Mich at 692, that the
evidence be “newly discovered.” The trial court did not abuse its discretion by denying
defendant’s request for a new trial.8 Defendant’s claim fails.
Affirmed.

/s/ Kirsten Frank Kelly
/s/ Elizabeth L. Gleicher
fsl Cynthia Diane Stephens

7 We note that, although the plea agreement that Young and Hamilton entered into prevented the
prosecution from compelling them to testify against defendant, the agreement did not prevent
them from testifying on their own volition. --------- ------—...............
8 We also reject defendant’s related argument that defense counsel’s performance was deficient
for failing to discover the allegedly exculpatory testimonies of Hamilton and Young. Even
assuming counsel’s performance fell below the objective level of professional norms, defendant
cannot demonstrate prejudice. Overwhelming ^evidence supported defendant’s convictions and
Hamilton and Young’s testimonies would be inherently suspect, Terrell,___Mich App at___ .
Thus, there is no reasonable likelihood that but for counsel’s error the result of the proceedings
would have been different.

-7-

App'x: D
MICHIGAN SUPREME COURT'S ORDER DENYING
LEAVE TO APPEAL ON DIRECT APPEAL OPINION

Lexis Advance®

Document: People v. Perry, 2011 Mich. LEXIS 1642

People v. Perry, 2011 Mich. LEXIS 1642
f

Copy Citation

Supreme Court of Michigan
September 26, 2011, Decided
SC: 142737
Reporter
2011 Mich. LEXIS 1642 * | 490 Mich. 872 | 803 N.W.2d 331

PEOPLE OF THE STATE OF MICHIGAN, Plaintiff-Appellee, v JERMOND LAWRENCE PERRY, Defendant-Appellant.

Prior History: [*1] COA: 294223. Wayne CC: 03-011974-FC.
People v. Perry, 2011 Mich. App. LEXIS 57 (Mich. Ct. App., Jan. 13, 2011)

Judges: Robert P. Young, Jr-.-., Chief Justice. Michael F. Cavanaghw, Marilyn Kelly

Stephen J. Markman w,

Diane M. HathawayMary Beth Kellys, Brian K. Zahra-w, Justices.

Opinion

Order
On order of the Court, the application for leave to appeal the January 13, 2011 judgment of the Court of Appeals is considered, •
and it is DENIED, because we are not persuaded that the questions presented should be reviewed by this Court.

Content Type: Cases
Terms: people v. perry 2011 mich. lexis 1642
Narrow By: Sources: Sources
Date and Time: Jun 25,2020 01:20:01 p.m. CDT

«

1

App'x: E
TRIAL COURT"S OPINION DENYING POST CONVICTION RELIEF

STATE OF MICHIGAN
THIRD CIRCUIT COURT
CRIMINAL DIVISION
THE PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Case Number 03-11974
Hon. Gregory D. Bill
v
JERMOND PERRY,
Defendant.
OPINION
For the following reasons enumerated herein, defendant's Motion for
\

Relief from Judgment is denied.
Following a jury trial, defendant was found guilty of two counts of firstdegree, premeditated murder, MCL 750.316(1) (a), two counts of first-degree,
felony-murder, MCL 750.316(1) (b), one count of being a felon in possession of a
firearm, MCL 750.224f, and one count of possession of a firearm during the
commission of a felony (felony-firearm), MCL 750.227b. Defendant was
sentenced to life imprisonment for the first-degree murder convictions, three to
five years imprisonment for the felon in possession of a firearm conviction, and a
consecutive two years imprisonment for the felony-firearm conviction.
The Michigan Court of Appeals affirmed defendant's conviction and
sentence on January 13, 2011. On September 26, 2011, the Michigan Supreme
Court denied defendant's application for leave to appeal the January 13, 2011
order of the Court of Appeals. Defendant now files a Motion for Relief from
1

Judgment pursuant to MCR 6.500 et seq.

The Prosecution has not filed a

response.
In order to advance an allegation in a Motion for Relief from Judgment
that could have been made in a prior appeal or motion, a defendant must
demonstrate "good cause" for failure to raise the grounds on appeal and actual
prejudice resulting from the alleged irregularities that support the claim of relief,
pursuant to MCR 6.508(D)(3)(b). The cause and prejudice standards are based
on precedent from the United States Supreme Court.1 A court may not grant
relief, if the defendant alleges grounds for relief, other than jurisdictional defects,
which could have been raised on appeal from the conviction of the sentence or in
a prior motion for relief from judgment; unless defendant demonstrates good
cause for the failure to previously raise the grounds and actual prejudice from
the alleged irregularities that support the claim.2

The federal courts have

recognized certain claims, which are sufficient for establishing good cause.
Government interference, the inability to obtain a factual basis for the claim, and
ineffective assistance of appellate counsel, are all sufficient, if adequately
supported, to satisfy the good cause prong.
Specifically defendant raises several issues as grounds for relief 1) that
there was insufficient evidence presented to establish and support his
convictions of first-degree felony murder; 2) that there was insufficient evidence
presented to support a conviction for aiding and abetting; 3) multiple instances
1 Waimvright v Sykes, 433 US 72; 97 S Ct 2497; 53 LEd 2d 594 (1977)
2 MCR 6.508(D)(3); People v Broivn, 196, Mich App 153; 492 NW2d 770 (1992), People v
Watroba, 193 Mich App 124; 483 NW2d 441 (1992)
2

of prosecutorial misconduct and 4) that he received ineffective assistance of trial
and appellate counsel.
Sufficiency of the Evidence
Felony Murder
Defendant argues that there was insufficient evidence to prove the
elements of first-degree felony murder beyond a reasonable doubt because there
was no evidence that an armed robbery occurred. In ruling on a claim that there
was insufficient evidence to submit a charge to the jury (trier of fact), all evidence
— circumstantial, direct, uncorroborated — must be considered in the light most
favorable to the prosecution's case.3

The testimony of the victim alone can

constitute sufficient evidence to establish a defendant's guilt beyond a reasonable
doubt.4

The court may not determine the weight of the evidence or the

credibility of the witnesses.5 The court is not to sit as a "13th juror" and a judge
may not repudiate a jury verdict on the ground that "he disbelieves the
testimony of witnesses for the prevailing party."6

Absent exceptional

circumstances, issues of witness credibility are for the jury and the trial court
should not substitute its view of the credibility for the constitutionally
guaranteed jury determination thereof.7

3 Id.
4 MCL 750.520(h); People v. Taylor, 185 Mich App 1, 8; 460 N.W.2d 582 (1990).
5 People v. Mehall, 454 Mich 1, 6; 557 N.W.2d 110 (1997).
6 People v. Lemmon, 456 Mich 625, 636-642, 645; 576 NW2d 129 (1998), quoting People v.
Johnson, 397 Mich 686, 687; 246 NW2d 836 (1976).
7 Id. at 642.
3 .

Felony murder consists of the killing of a human being with the intent to
kill, to do great bodily harm, or to create a high risk of death or great bodily
harm with knowledge that death or great bodily harm was the probable result
while committing, attempting to commit or assisting in the commission of any
felonies specifically enumerated in MCL 750.316(l)(b).8 The underlying felony
involved in this case is robbery armed, a felony enumerated in MCL
750.316(1) (b). Armed robbery is a felonious taking of property from a person
perpetrated through the use of a weapon and an assault.

Defendant, Perry,

claims that there was insufficient evidence to support a conviction for felony
murder based upon armed robbery because there was no evidence that he
intended to commit armed robbery or that an robbery occurred.
The record evidence directly contradicts this assertion however, as it
shows that the defendant and his companions effectuated a robbery during
which the victims, Dennis Perry and Andrea Perry, were murdered. All of the
witnesses during trial testified that defendant was armed and took part in the
robbery.
Upon review, this Court finds, in a light most favorable to the People,
there was sufficient evidence from which a rational trier of fact could conclude
the essential elements of first-degree felony murder premised on armed robbery
were proven beyond a reasonable doubt.9

There is nothing in defendant's

argument nor in the record itself that demonstrates any exceptional

8 People v Lee, 212 Mich App 228, 258 (1995).
9 People v. Hardiman, 466 Mich 417, 420-421; 646 N.W.2d 158 (2002).
4

circumstance, which would support overturning the trier of facts' determination.
In reviewing a sufficiency claim, all conflicts in testimony are resolved in favor of
the prosecution.10 As such, defendant's claim is without merit.
Aiding and Abetting
Defendant next argues that there was insufficient evidence presented to
establish that he formed the intent to commit or aid and abet a robbery prior or
during the murders. A person who aids or abets the commission of a crime may
be convicted and punished as if he directly committed the offense.11 An aider
and abettor's state of mind may be inferred from all the facts and circumstances,
including close association between the defendant and the principal or execution
of the crime.12 Because of the difficulty of proving an actor's state of mind,
minimal circumstantial evidence is sufficient.13 The evidence clearly showed that
defendant was involved in the crimes from the very beginning.

Multiple

witnesses testified that defendant was armed and took part in the robbery as well
as being one of the persons that discharged his weapon.14
Defendant s assistance in the planning and execution of armed robbery as
well as the murder were sufficient to establish his guilt. A defendant may be
convicted as an aider and abettor for an offense that he had the required intent to
commit as well as the natural and probable consequences of that offense.15 A

10 People v Terry, 224 Mich App 447, 452; 569 N.W.2d 641 (1997).
11 People v Mass, 464 Mich 615 (2001)
12 People v Aaron, 409 Mich 672 (1980).
13 People v Fennell, 260 Mich App 261 (2004)
14 People v Perry, Trial Transcript, p.3,160-61,169
15 People v Robinson, 475 Mich 1,1 (2006)
5

natural and probable consequence of the plan to rob while armed was that the
defendant or his companions may very well intentionally kill the victim to aid
the robbery. In view of the above, this court finds there was sufficient evidence
beyond a reasonable doubt to convict defendant under a theory of aiding and
abetting.
Prosecutorial Misconduct
Defendant alleges the Prosecutor engaged in multiple instances of
misconduct. The test for prosecutorial misconduct is whether the defendant was
denied a fair and impartial trial.16 Generally it is the duty of the prosecutor to see
that a defendant receives a fair trial.17 Likewise, it is the prosecutor's duty to use
the best endeavor to convict persons guilty of a crime, and in the discharge of
this duty "an active zeal is commendable."18
This Court reviews this issue on a case-by-case basis and must examine
pertinent portions of the lower court record to evaluate the prosecutor's conduct
and remarks in context. Prosecutorial misconduct relates to a miscarriage of
justice only if the statements are so egregious that even with a cautionary
instruction, a defendant has been denied a fair trial.19 Defendant contends that
the above stated actions of the prosecutor denied him a fair trial. In examining
the entire record, the Court finds the prosecutor's conduct grounded on

16 People v Daniel, 207 Mich App 47; 523 NW2d 830 (1994); People v Allen, 201 Mich App
98; 505 NW2d 869 (1993)
17 People v Dane, 59 Mich 550; 26 NW 781 (1986)
is Id.

19 People v Montevecchio, 32 Mich App 163 (1971)
6

reasonable inference based on the evidence presented at trial, which is proper.20
Because defendant did not object at trial to the alleged misconduct, review is
precluded absent a showing of plain error.21

This Court finds neither

prosecutorial impropriety nor prejudicial effect and that defendant's claims of
error in this regard are without merit.
Ineffective Assistance of Counsel
Finally, defendant cannot succeed on his related claim that trial counsel
was ineffective for not raising the above issues during trial. Based on the above
review, analysis and record presented, any objection or motion by trial counsel
would have been futile. Counsel is not required to make a futile objection.22
Moreover, defendant also cannot succeed on his related claim that
appellate counsel was ineffective.

Ineffective assistance of appellate counsel

must be measured according to the same doctrine as trial counsel.23 Further, it is
well established that appellate counsel need not raise all possible claims of error
on appeal.24 Defendant contends his appellate counsel was ineffective for failing
to raise meritorious claims on direct appeal as well as the above issues. This
contention is without merit because the appellate counsel's decision to winnow
out weaker arguments and focus on those more likely to prevail is not evidence
of ineffective assistance.23

This Court will not second-guess the strategies

20 People v Vaughn, 200 Mich App 39; 504 NW2d 2 (1993)
21 People v Cannes, 460 Mich 750, 774; 597 NW2d 130 (1999)
22 People v Darden, 230 Mich App at 605 (1998)
23 Strickland v Washington, 466 US 668; 104 S. Ct. 2052; 80 L.Ed 2d 674 (1984)
24 Jones v Barnes, 463 US 745; 103 S. Ct. 3308; 72 L.Ed. 2d 987 (1983)
25 People v Pratt, 254 Mich. App. 425,430; 656 N.W. 2d 866 (2002)
7

•> *

appellate counsel employed. The record clearly reflects that the constitutional
rights afforded to defendant under the United States and Michigan Constitutions
have been protected.

Furthermore, defendant's argument fails because the

defendant cannot show any possible prejudice from appellate counsel's
decisions.26 Defendant was afforded a fair trial and full appeal. Defendant's
claim is without merit. Defendant has not shown "good cause" under MCR
6.508(D)(3), nor has he proven actual prejudice.
Therefore, for all the aforementioned reasons stated, defendant's Motion
for Relief from Judgment is hereby DENIED.

z

/Z
Dated:

qP/

r-^/4/

CIROUIT'C.OURT JUDGE

26 Id. at 430
8

>>

STATE OF MICHIGAN
THIRD CIRCUIT COURT
CRIMINAL DIVISION
THE PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Case Number 03-11974
Hon. Gregory D. Bill

v
JERMOND PERRY,
Defendant.
ORDER

AT A SESSION OF SAID COURT HELD IN THE FRANK
MURPHY HALL OF JUSTICE ON 02 -Jl tH

PRESENT: HONORABLE "TTwnn
WflM RRFRHPY
H Bill
^1-----CIRCUIT COURT JUDGE
For the reasons stated in the foregoing Opinion, IT IS HEREBY
ORDERED that Defendant's Motion for Relief from Judgment is DENIED.

CIRCUIT COURT JUDGE

*
*

<k

*

App'x: F
MICHIGAN COURT OF APPEALS ORDER DENYING LEAVE TO APPEAL

I

4

*

App'x: G
MICHIGAN SUPREME COURT ORDER DENYING
LEAVE TO APPEAL ON POST-CONVICTION REVIEW

f.

Document: People v. Perry, 2015 Mich. LEXIS 1199

People v. Perry, 2015 Mich. LEXIS 1199
Copy Citation
Supreme Court of Michigan
I

May 27, 2015, Decided
SC: 150147

Reporter
2015 Mich. LEXIS 1199 * | 497 Mich. 1023 | 863 N.W.2d 38

PEOPLE OF THE STATE OF MICHIGAN, Plaintiff-Appellee, v JERMOND LAWRENCE PERRY, Defendant-Appellant.

Prior History: [*1] COA: 322933. Wayne CC: 03-011974-FC.
People v. Perry, 2011 Mich. App. LEXIS 57 (Mich. Ct. App., Jan. 13, 2011)

Core Terms
first-degree, Corrections, sentence, murder, order of the court, murder conviction

Judges: Robert P. Young, Jr. ■*•, Chief Justice. Stephen J. Markman ■»-, Mary Beth Kelly -w, Brian K. Zahra -w,
Bridget M. McCormack▼, David F. Viviano-*-, Richard H. Bernstein ▼, Justices.

Opinion

Order
On order of the Court, the application for leave to appeal the September 15, 2014 order of the Court of Appeals is considered
and, pursuant to MCR 7.302(H)(1), in lieu of granting leave to appeal, we REMAND this case to the Wayne Circuit Court for
correction of the judgment of sentence to reflect two first-degree murder convictions. The original and amended judgments of
sentence inaccurately reflect four first-degree murder convictions, notwithstanding that only two people were murdered. See
People v Orlewicz, 293 Mich App 96, 112; 809 N.W.2d 194 (2001) ("convicting a defendant of both first-degree premeditated
murder and first-degree felony murder arising out of the death of a single victim is a violation of double-jeopardy protection").
We further ORDER the trial court to ensure that the corrected judgment of sentence is transmitted to the Department of
Corrections. In all other respects, leave to appeal is DENIED, because the defendant has failed to meet the burden of
establishing entitlement to relief under MCR 6.508(D).

Content Type: Cases
Terms: people v. perry 2015 mich. lexis 1199
Narrow By: Sources: Sources

